Case: 19-14799

Date Filed: 02/14/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
s-

No. 19-14799-G
ROBERT WILLIAM MOYNIHAN,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
ORDER:
To merit a certificate of qjpealability, appellant must show that reasonable jurists would
find debatable both (1) die merits of an underlying claim, and (2) the procedural issues that he
seeks to raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478 (2000).
Appellant’s motion for a certificate of appealability is DENIED because he failed to make the
requisite showing.
/s/ Charles R. Wilson
UNITED STATES CIRCUIT JUDGE

<©

Case: 19-14799

Date Filed: 04/10/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

c
No. 19-14799-G

I

ROBERT WILLIAM MOYNIHAN,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Middle District of Florida
Before: WILSON and NEWSOM, Circuit Judges.
BY THE COURT:
Robert Moynihan has filed a motion for reconsideration, pursuant to 11th Cir. R. 22-1(c)
and 27-2, of this Court’s February 14, 2020, order denying a certificate of appealability in his
appeal of the district court’s denial of his pro se 28 U.S.C. § 2254 habeas corpus petition. Upon
review, Moynihan’s motion for reconsideration is DENIED because he has offered no new
evidence or arguments of merit to warrant relief.

mcLiy.

RU ApiOt
^>0.^- n a/wita^r
h(U'<

Case 5:17-cv-00017-RBD-PRL_ Document 27 Filed 10/22/19 Page 1 of 21 PagelD 1535

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
OCALA DIVISION

c

ROBERT W. MOYNIHAN,

hllhthmft
.....'>

Petitioner,
v.

Case No: 5:17-cv-17-Oc-37PRL

SECRETARY, DEPARTMENT OF
CORRECTIONS and ATTORNEY
GENERAL, STATE OF FLORIDA,
Respondents.

J
ORDER
Petitioner seeks a Writ of Habeas Corpus ("Petition," Doc. 1) under 28 U.S.C. §
2254. Respondents filed a Response. ("Response," Doc. 22). Petitioner replied ("Reply,"
Doc. 24), and it is ripe for review.
Petitioner asserts nine grounds for relief. The Petition is denied.
I.

Procedural History

The State Attorney's Office for the Fifth Judicial Circuit in and for Citrus County,
Florida charged Petitioner by amended information with trafficking in controlled
substance (Count One) and strongarm robbery (Count Two). ("Appendix," Doc. 23-1 at
33). The jury found Petitioner guilty as charged. (Doc. 23-1 at 81-82). The state court
sentenced Petitioner to thirty years with a twenty-five year minimum mandatory on
Count One and to a consecutive term of fifteen years on Count Two. (Doc. 23-1 at 91-105).
Petitioner appealed. (Doc. 23-1 at 106). The Fifth District Court of Appeal ("Fifth DCA")

O

i* D

©

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 2 of 21 PagelD 1536

-per curiam affirmed, denied a motion for rehearing, and issued mandate. (Doc. 23-1 at 823,
828, 830); Moynihan v. State, 145 So, 3d 862 (Fla, 5th DCA 2014) (Table).
Petitioner petitioned for writ of habeas corpus in the Fifth DCA alleging ineffective
assistance of appellate counsel. (Doc. 23-1 at 832-79). The State responded in opposition.
i

(Doc. 23-1 at 881-90). The Fifth DCA denied the petition without written opinion. (Doc.
23-1 at 892).
Petitioner moved for postconviction relief under Rule 3.850 of the Florida Rules of
Criminal Procedure raising nine grounds of ineffective assistance of counsel: (1) failure
to move to suppress evidence; (2) failure to move to suppress his confession; (3) deceiving
him from having a Nelson hearing; (4) failure to file any motions to dismiss, investigate
the case, and argue for a judgment of acquittal; (5) failure to move to have "irrelevant
evidence from the prosecution's case to be viewed by the jury;" (6) failure to request a
competency evaluation; (7) mishandling evidence, failure to object to prosecutorial
misconduct; (8) not moving for a competency evaluation after Petitioner attempted
suicide dining the trial; and (9) permitting him to enter a plea agreement while under
duress. (Doc. 23-1 at 972-1042). The state court summarily denied the motion. (Doc. 23-1
at 898-970). Petitioner appealed, and the Fifth DCA per curiam affirmed. (Doc. 23-2 at 21);
Moynihan v. State, 202 So. 3d 430 (Fla. 5th DCA 2016) (Table).
Petitioner moved to correct illegal sentence under Rule 3.800(a) of the Florida
Rules of Criminal Procedure claiming that his consecutive sentences were illegal and
violated double jeopardy. (Doc. 23-2 at 34-38). The state court dismissed the motion

2

©

Case 5:17-cv-0Q017-RBD-'PRL Document 27 Filed 10/22/19 Page 3 of 21 Page ID 1537

finding it was not cognizable under Rule 3.800 and untimely under Rule 3.850. (Doc. 23■

-

2 at 40-44). Petitioner did not appeal:
Petitioner filed a second motion to correct illegal sentence under Rule 3.800(a)
raising the same argument as the first Rule 3.800(a) motion. (Doc. 23-2 at 46-54). The state
court dismissed the motion finding this was the same claim as his previous motion. (Doc.
•

'• i

23-2 at 56-58). Petitioner appealed and the Fifth DCA per curiam affirmed. (Doc. 23-2 at
64).
After suing, Petitioner moved for leave to refile his Rule 3.850 motion alleging that
the prison mail room failed to date stamp or mail a supplement to the original motion.
(Doc. 23-2 at 68-116). The state court denied motion. (Doc. 23-2 at 118-24). Petitioner
t

appealed, but voluntarily dismissed the appeal. (Doc. 23-2 at 131-32,134).
II. 'i Legal Standards
A.

Standard of Review Under the Antiterrorism Effective Death Penalty Act
("AEDPA")

Under the AEDPA, federal habeas relief may not be granted on a claim adjudicated
on the merits in state court unless the adjudication of the claim:
(1)

resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States; or

(2)

resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented
in the State court proceeding.
\-

3
■

■

(D

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 4 of 21 PagelD 1538

28 U.S.C. § 2254(d). The phrase "clearly established Federal law," encompasses only the
holdings of the United States Supreme Court "as of the time of the relevant state-court
decision." Williams v. Taylor, 529 U.S.362,412 (2000).
"[Sjection 2254(d)(1) provides two separate bases for reviewing state court
decisions; die 'contrary to' and 'unreasonable application' clauses articulate independent
considerations a federal court must consider." Maharaj v. Sec'yfor Dep't of Corr., 432 F.3d
' i:
I

i

i

1292, 1308 (11th Cir. 2005). The meaning of the clauses was discussed by the Eleventh
Circuit In Parker v. Head, 244 F.3d 831, 835 (llth Cir. 2001):
Under the "contrary to" clause, a federal court may grant the writ if the
state court arrives at a conclusion opposite to that reached by [the
United States Supreme Court] on a question of law or if the state court
decides a case differently that [the United States Supreme Court] has on
a set of materially indistinguishable facts. Under the 'unreasonable
application' clause, a federal habeas court may grant the writ if the state
court identifies the correct governing legal principle from [the United
States Supreme Court's] decisions but unreasonably applies that
principle to the facts of the prisoner's case.
Even if the federal court finds that the state court applied federal law incorrectly, habeas
relief is appropriate only if that application was "objectively unreasonable."1 Id. Finally,
under § 2254(d)(2), a federal court may grant a writ of habeas corpus if the state court's
decision "was based oh an unreasonable determination of the facts in light of the evidence

1 In considering the "unreasonable application" inquiry, the Court must determine
"whether the state court’s application of clearly established federal law was objectively
unreasonable." Williams, 529 U.S. at 409. Whether a state court's decision was an
unreasonable application of law must be assessed in light of the record before the state
court. Holland v. Jackson, 542 U.S. 649,652 (2004) (per curiam); cf. Bell v. Cone, 535 U.S. 685,
697 n. 4 (2002) (declining to consider evidence not presented to state court in determining
whether its decision was contrary to federal law).
4

©

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 5 of 21 Page!D 1539

presented in the State court proceeding." A determination of a factual issue made by a
state court, however, shall be presumed correct, and the habeas petitioner shall have to
■■i

©

.

rebut the presumption of correctness by clear and convincing evidence. See Parker, 244
F.3d at 835-36; 28 U.S.C. .§ 2254(e)(1);
B.

Standard for Ineffective Assistance of Counsel

In Strickland v. Washington, the Supreme Court established a two-part test for
determining whether a convicted person may have relief because his counsel rendered
ineffective assistance. 466 U.S. 668, 687-88 (1984). A petitioner must establish that
counsel's performance was deficient and fell below an objective standard of
reasonableness and that the deficient performance prejudiced the defense. Id. This is a
f

"doubly deferential" standard of review that gives both the state court and the
petitioner's attorney the benefit of the doubt. Burt, 134 S. Ct. at 13 (citing Cullen v.
Pinholster, 131 S. Ct. 1388,1403 (2011)).
The focus of inquiry under Strickland's performance prong is "reasonableness
under prevailing professional norms." Strickland, 466 U.S. at 688-89. In reviewing
counsel's performance, a court must adhere to a strong presumption that "counsel's
conduct falls within the wide range of reasonable professional assistance." Id. at 689. The
\•

petitioner must "prove, by a preponderance of the evidence, that counsel's performance
was unreasonable[.]" Jones v. Campbell, 436 F.3d 1285,1293 (11th Cir. 2006). A court must
"judge the reasonableness of counsel's conduct on the facts of the particular case, viewed
*

as of the time of counsel's conduct," applying a "highly deferential" level of judicial
■

■ .

i

:

■

scrutiny. Roe v. Flores-Ortega, 528 U.S. 470,477 (2000) (quoting Strickland, 466 U.S. at 690).
5

©

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 6 of 21 Page ID 1540
i

!

Petitioner's burden to show Strickland prejudice is also high. Wellington v. Moore,
314 F.3d 1256, 1260 (11th Cir. 2002). Prejudice "requires showing that counsel's errors
were so serious as to deprive the defendant of a fair trial, a trial whose result is reliable."
■

i-;

Strickland, 466 U.S. at 687. That is, "[t]he defendant must show that there is a reasonable
probability that, but. for counsel's unprofessional errors, the result of the proceeding
would have been different." Id. at 694. A reasonable probability is "a probability sufficient
to undermine confidence in the outcome." Strickland, 466 U.S. at 694.
C.

Exhaustion

The AEDPA precludes federal courts, absent exceptional circumstances, from
granting habeas relief unless a petitioner has exhausted all means of available relief under
state law. Exhaustion of state remedies requires that the state prisoner "fairly presen[t]
federal claims to the state courts in order to give the State the opportunity to pass upon
and correct alleged violations of its prisoners' federal rightsf.]" Duncan v. Henry, 513 U.S.
364, 365 (1995) (citing Picard v. Connor, 404 U.S. 270, 275-76 (1971)). The petitioner must
apprise the state court of the federal constitutional issue, not just the underlying facts of
the claim or a similar state law claim. Snowden v. Singletary, 135 F.3d 732 (11th Cir. 1998).
In addition, a federal habeas court is precluded from considering unexhausted claims
that would be barred if returned to state court Coleman v. Thompson, 501 U.S. 722,735 n.l
: ri. : :• ,
r
(1991).
If a petitioner attempts to raise a claim in a manner not permitted by state
. •‘

procedural rules/ he is barred from pursuing the same claim in federal court. Alderman v.
Zant, 22 F.3d 1541,1549 (11th Cir. 1994). So a federal court must dismiss those claims or
6

©

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 7 of 21 Page ID 1541

portions of claims denied on adequate and independent procedural grounds under state
law. Coleman, 501 U.S. at 750.
A petitioner can avoid the application of procedural default by establishing: (1)
objective cause for failing to properly raise the claim in state court; and (2) actual
prejudice from the alleged constitutional violation. Spencer v. Sec'y, Dep't ofCorr., 609 F.3d
1170,1179-80 (llth Cir. 2010). To show cause, a petitioner "must demonstrate that some
objective factor external to the defense impeded the effort to raise the claim properly in
state court." Wright v. Hopper, 169 F.3d 695,703 (llth Cir. 1999); Murray v. Carrier, 477 U.S.
478 (1986). To show prejudice, a petitioner must show there is a reasonable probability
the outcome of the proceeding would have been different. Crawford v. Head, 311 F.3d 1288,
1327-28 (llth Cir. 2002).
A second exception, known as the fundamental miscarriage of justice, only occurs
in an extraordinary case, where a "constitutional violation has probably resulted in the
conviction of one who is actually innocent[.]" Murray, 477 U.S. at 479-80. Actual
innocence means factual innocence,; not legal insufficiency. Bousley v. United States, 523
r

U.S. 614, 623 (1998). To meet this standard, a petitioner must "show that it is more likely
than not that no reasonable juror would have convicted him" of the underlying offense.
Schlup v. Delo, 513 U.S. 298, 327 (1995). "To be credible, a claim of actual innocence must
be based on [new] reliable evidence not presented at trial." Calderon v. Thompson, 523 U.S.
538, 559 (1998) (quoting Schlup, 513 U.S. at 324).

III.

Analysis
7

©

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 8 of 21 PagelD 1542

A.

Grounds One and Two

Petitioner challenges the state court's denial of his Rule 3.850 claims alleging
ineffective assistance of counsel. (Doc. 1 at 6-9). Petitioner claims that his counsel failed
to move to suppress the items obtained from an illegal search and seizure. (Id. at 6).
;•

Petitioner asserts that he was prejudiced by the admission of this evidence. Id. Petitioner
further argues that counsel failed to move to suppress his confession because he was
coerced, under the influence, and not read his Miranda rights. (Id. at 8).
Petitioner raised these grounds in his Rule 3.850 motion. (Doc. 23-1 at 979-90). The
'

;:

state court denied this claim:
In Grounds One and Two of the Defendant's motion he claims his trial
counsel was ineffective for failing to file a motion to suppress evidence from
his vehicle and his confession. Defendant argues his trial counsel failed to
seek suppression of illegally obtained evidence from his vehicle as well as
his confession. Defendant has failed, to allege sufficient facts to show that
his counsel has a valid basis for filing the motion to suppress and that there
is a reasonable probability that the motion would have been granted. See
State v. Curley, 69.1 So. 2d 618 (Fla. 5th DCA 1997). Motion to suppress is
filed to suppress evidence gained improperly or illegally. See Fla. R. Crim.
P. 3.190(g) (2015). Here, Defendant fails to cite any improper conduct by
law enforcement in obtaining the evidence he seeks to suppress. Defendant
was initially stopped for driving With expired driver's license. See attached
here Arrest Affidavit. Upon his arrest his vehicle was inventoried and the
officer found "large amount[s]" of tools, oxycontin pills, and other drug
paraphernalia. Id. Moreover, the Defendant's statements to law
enforcement were made after he was advised of his Miranda rights. See
attached hereto Trial Transcript November 6,2012, Volume III, pp. 397-402.
Therefore, trial counsel had no basis to file a motion to suppress.
(Doc. 23-1 at 900). Petitioner appealed these grounds to the Fifth DCA. (Doc. 23-1 at 1051h
53). The State declined to submit an answer brief, unless the appellate court so requested.

8

h

(S>

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 9 of 21 Page ID 1543

(Doc. 23-2 at 18-19). The Fifth DCA affirmed the postconviction court's decision. (Doc. 232 at 21).
The state court findings and conclusions about this claim were reasonable, in
accord with, and not contrary to, the principles of Strickland, which the state court cited
as the controlling authority on ineffective assistance of counsel claims; and were not

!il

unreasonable, given the evidence in the state court proceedings. 28 U.S.C. § 2254(d)(1)(2). See also Faretta v. California, 422 U.S. 806, 834 n. 46 (1975) ("a defendant who elects to
represent himself cannot thereafter complain that the quality of his own defense
amounted to a denial of 'effective assistance of counsel.'").
:i

B.

Ground Three

Petitioner challenges the state court's denial of his Rule 3.850 claim alleging
ineffective assistance of counsel. (Doc. 1 at 9-11). Petitioner claims that counsel failed to
request a Nelson hearing,2 but "went straight to Faretta" (Id. at 9). Petitioner states this
■

I .

i: '

tricked him into representing himself when there were other alternatives. Id.
Petitioner raised this ground in his Rule.3.850 motion. (Doc. 23-1 at 990-994). The
state court denied the claim:
Next, in Ground Three, Defendant alleges his trial counsel was ineffective
for denying him a right to a Nelson hearing. Defendant contends his trial
counsel "tricked" him into seeking to represent himself. Defendant
maintains he was not willing to accept a plea and his trial counsel advised
against going to trial. This led to him "firing" him for "dissatisfaction,"
2 In Florida, when a defendant requests his appointed counsel be removed for
incompetence, "the trial judge should make a sufficient inquiry of the defendant and his
appointed counsel to determine whether ... there is reasonable cause to believe that the
court appointed counsel.is not rendering effective assistance to the defendant." Nelson v.
State, 274 So. 2d 256, 258-59 (Fla. 4th DCA 1973).
9

(D

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 10 of 21 PagelD 1544

however trial counsel failed to advise him of his right to seek alternate
counsel. These claims are conclusively refuted by the record. During a
status hearing the Court was advised by defense counsel that he would tike
to represent himself. See attached hereto Faretta Hearing Transcript pp. 3-6.
The Court advised the Defendant of his rights and specifically, inquired
whether he wanted to represent himself at which time Defendant chose selfrepresentation. Id. at 6-8. Additionally, the Court reviewed his rights to CjU^ ^ fl/, r
have any attorney and the Defendant chose to represent himself without jl,
f-?
requesting a substitute attorney. Id. at 9-25..It appears to this Court that the
.
Defendant's request to dismiss his court appointed counsel was made
voluntarily, knowingly, and intelligently.
(Doc. 23-1 at 901). Petitioner appealed this ground to the Fifth DCA. (Doc. 23-1 at 105455). The Fifth DCA affirmed the postconviction court's decision. (Doc. 23-2 at 21).
.

■?;’

The state court findings and conclusions about this claim were reasonable, in
i. !

'

accord with, and not contrary to,; the principles of Strickland, which the state court cited
as the controlling authority on ineffective assistance of counsel claims; and were not
unreasonable, given the evidence in the state court proceedings. 28 U.S.C. § 2254(d)(1)(2).
C.

Ground Four

Petitioner challenges the state court's denial of his Rule 3.850 claim alleging
ineffective assistance of counsel: (Doc. 1 at 11,15). Petitioner claims that his counsel failed

'I::''.--.

to investigate his case or file any motions. (Id. at 11). Petitioner asserts that his-counsel
■

i

told him that filing any motions would be frivolous and improper. Id.
Petitioner raised this ground in his Rule 3.850 motion. (Doc. 23-1 at 994-1000). The
state court denied this claim:
Furthermore, in Ground FoUr of Defendant's motion he alleges his trial
counsel was ineffective for failing to investigate, file motion to dismiss, and
failing to argue for a judgment of acquittal. Defendant contends his charges
10
■

',

f:

i
Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 11 of 21 PagelD 1545

violated double jeopardy and that uncharged evidence was used to
prejudice him at trial. The Court finds there was no basis for a double
jeopardy challenge. The established test for double jeopardy is set forth in
Blockburger v. United States, ^284 U.S. 299 (1932): whether each offense
requires proof of an additional fact or element that the other does not. See
also, Valdes v. State, 3 So. 3d 1067 (Fla. 2009). Florida has codified the
Blockburger test at section 775.021, Florida Statutes (2012). Here, the
Defendant was charged with one count of Trafficking in Controlled
Substance thus double jeopardy does not apply. Furthermore, trial counsel
had no basis to seek a judgment of acquittal. The Defendant was
representing himself with trial counsel as stand by. See attached hereto Trial
Transcript November 6, 2012, Volume III, pp. 470-472. The Court advised
him as to the time to seek a judgment of acquittal and inquired whether he
or his trial counsel would be making the argument. Id. at 470-472. Rather
than making the arguments he requested time to consider a plea. Id. at 472.
Accordingly, Defendant's Ground Four is without merit.
(Doc. 23-1 at 901-02). Petitioner did not appeal this ground to the Fifth DCA. See Doc. 231 at 1044-1126; Doc. 23-2 at 1-16.
............

Petitioner foiled to exhaust^ this claim in state court and is now procedurally
defaulted from raising it here. Federal habeas courts may not review the merits of
procedurally defaulted claims unless the petitioner shows either (l^causeTor failing to
properly present the claim and . actual prejudice' from the default, or (2) that a
fundamental miscarriage of justice would result if the claim were not considered. Bailey
v. Nagle, 172 F.3d 1299, 1302, 1306 (11th Cir. 1999). Petitioner failed to show cause and
prejudice for the default,; and nothing in the record suggests a fundamental miscarriage
of justice would result if the Court does not consider the claim.
D.

Ground Five

Petitioner challenges the state court's denial of his Rule 3.850 claim alleging
. :
•

’3! '
*■;

ineffective assistance of counsel. (Doc. 1 at 12). Petitioner claims that his counsel failed to
f !

11

:

■

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 12 of 21 PagelD 1546

have irrelevant evidence suppressed and misadvised him that the Williams Rule covered
this evidence. Id.
■

;

M

:

Petitioner raised this ground in his Rule 3.850 motion. (Doc. 23-1 at 1000-02). The
state court denied this claim:
Also, in Ground Five, Defendant alleges his trial counsel was ineffective for
failing to move to exclude irrelevant evidence. Defendant maintains that
law enforcement's search of his vehicle was illegal. As noted above, the
search of the Defendant7s vehicle was valid. See Lightboume v. State, 438 So.
2d 380 (Fla. 1983) (finding that inventory after lawful arrest does not violate
search and seizure protection). At trial, the inventory of the vehicle was
entered into evidence by the officer that performed the inventory. See
attached hereto Trial Transcript November 6, 2012, Volume III, pp. 373-81.
Defendant representing himself did not object to the introduction of the
evidence. Id. Therefore, trial counsel had no basis to seek exclusion of
evidence.
(Doc. 23-1 at 902). Petitioner appealed this ground to the Fifth DCA. (Doc. 23-1 at 105657). The Fifth DCA affirmed the postconviction court's decision. (Doc. 23-2 at 21).
The state court findings and conclusions about this claim were reasonable, in
accord with, and not contrary to, the; principles of Strickland, which the state court cited
as the controlling authority on ineffective assistance of counsel claims; and were not
unreasonable, given the evidence in the state court proceedings. 28 U.S.C. § 2254(d)(1)(2).
E.

Grounds Six and Eight

Petitioner challenges the state court's denial of his Rule 3.850 claims alleging
ineffective assistance of counsel. (Doc, 1 at 12-14). Petitioner claims that counsel failed to
have his competency evaluated despite his previous mental competency issues, his
previous suicide attempts, and his need for prescription medicine. (Id. at 12). Petitioner
■■■'! If
12

(a)

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 13 of 21 PagelD 1547

further claims that counsel failed to have his competency evaluated after he attempted
suicide in the holding cell during the trial. (Id. at 13-14).
Petitioner raised these grounds in his Rule 3.850 motion. (Doc. 23-1 at 1002-04,
1007-10). The state court denied these claims:
In Grounds Six and Eight of Defendant's motion he claims trial
counsel was ineffective for failing to seek a competency evaluation and
failing to seek a competency evaluation after attempted suicide. He argues
that his trial counsel was aware of his previous mental health problems but
failed to request competency evaluation. In determining competency
pursuant to Florida Rules of Criminal Procedure 3.210(b), "die court of its
own motion/ opdn motion of counsel for the defendantof forthesTate,has
rea sonable ground to believe that .the defendant is nptmentajly .competent
to proceed, the court shall)immediately enter its order setting a time for a
hearing to determine the defendant's mental condition ..." Courts are to
order competency hearings "whenever it appears necessary based on the
defendant's history, or behavior in court." Boyd v. State, 910 So. 2d 167,187
(Fla. 2005) (citation omitted). See also Alston v. State, 723 So. 2d 148,157 (Fla.
1998) ("[R]ule 3.215(c) is triggered only when there is a prior adjudication
of incompetency or restoration, or when a defendant exhibits inappropriate
behavior and it is shown that the inappropriate behavior is a result of the
psychotropic medication.").
In the instant case, trial court had no basis to seek a competency %
evaluation. See Nelson v. State, 43 So. 2d 20 (Fla. 2010) (where there is no &.u : . - >
evidence calling a defendant's competencyjnto question, counsel is not
bound to seek an evaluation). In a post-conviction setting that raises the
issue Of competency, "the trial court is faced with two questions: (1)
whether the court could make a meaningful retrospective evaluation of the
defendant7 s competence at the time of trial; and, if so, (2) whether the
defendant was in fact competent at the time of trial." Jones v. State, 740 So.
2d 520, 523 (Fla. 1999). "In order to demonstrate prejudice from counsel's
failure to investigate his competency, a petitioner has to show that there
exists
least a reasonable probability that a psychological evaluation
would have revealed that he was incompetent to stand trial’-^' Nelson v.
State, 43. Sp, 3d 20^^)(Fla. 2010) (quoting Futch v. Dugger, 874 F.2d 1483
(11th Cir. 1989)). Moreover, "while, a suicide attempt is an indication of
possible mental instability, it alone does not necessarily create a reasonable
doubt about a defendant's competency to stand trial "(id) (citing Drope v.
Missouri, 420 U.S. 162 (1975)). Here, trial counsel had no basis to request a
competency evaluation. Defendant was found competent to represent
13

©

■C/j

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 14 of 21 PagelD 1548

himself and the attempted suicide alone does not require evaluation. See
attached hereto Trial Transcript November 7,2012, Volume IV, pp. 507-16.
(Doc. 23-1 at 902-03). Petitioner appealed these grounds to the Fifth DCA. (Doc. 23-1 at
1057-61). The Fifth DCA affirmed the postconviction court's decision. (Doc. 23-2 at 21).
V .

The test for determining competence to stand trial or to plead guilty is whether the
defendant "has sufficient present ability to consult with his [or her] lawyer with a
reasonable degree of rational understanding" and whether die defendant "has a rational
as well as factual understanding of the proceedings against him [or her]." Dusky v. United
States, 362 U.S. 402, 402 (1960) (per curiam). A trial court must conduct, sua sponte, a
competency hearing when the information known to the trial court during the trial or
plea hearing raises a bona fide doubt about the defendant's competence. Pate v. Robinson,
383 U.S. 375, 385 (1966); McNair v. Dugger, 866 F.2d 399, 401 (11th Cir.), cert, denied, 493
U.S. 834 (1989). Courts focus on three factors in determining whether the trial court
violated the defendant's procedural due process rights by failing to hold sua sponte a
Y.5
competency hearing: (1) evidence of the defendant's irrational behavior; (2) the
defendant's demeanor; and (3) prior medical opinion regarding the defendant's
i

competence to stand trial. Drape, 420 U.S. at 180. Such an analysis focuses on what the
trial court did given what it knew during the trial or plea hearing. Reese v. Wainwright,
600 F.2d 1085,1091 (5th Cir.), cert, denied, 444 U.S. 983 (1979).3

3 This case was decided before the close of business on September 30,1981, and is binding
precedent under Bonner v. City of Prichard, 661 F.2d 1206,1209 (11th Cir. 1981) (en banc).
14

©

Case 5:17-CV-00017-RBD-PRL Document 27 Filed 10/22/19 Page 15 of 21 PagelD 1549

During the many stages of the trial, the state court observed Petitioner and found
him to be competent. The Court conducted a Faretta hearing and found Petitioner not
only competent to stand trial, but competent to represent himself. Before jury selection,
the trial court spoke with Petitioner and again found he was competent to represent
himself. (Doc. 23-1 at 119-21). Petitioner actively participated in the jury selection process.
Before trial began, the trial judge spoke to Petitioner and noted that the bailiffs stated that
Petitioner has not given them any trouble and the judge called him "a gentleman." (Doc.
23-1 at 284-85). During the trial, Petitioner gave an opening statement, cross-examined
the witnesses, and re-affirmed his decision to represent himself multiple times. Once
Petitioner heard the recording of his confession, he decided to "just throw in the towel."
' . -i

(Doc. 23-1 at 588). The Court then called a recess to allow Petitioner to consult with
■

■ i

.

standby counsel regarding how he wanted to proceed. Id. During this recess, Petitioner
physically harmed himself.
Petitioner was back in court following the incident and the following discussion
occurred:
THE COURT: ... Now, Mr. Moynihan, let me - - we're of record.
And I want to make sure that you know what's going on and that
you continue to want to represent yourself. Now, the law on that point
basically says that I can continue to allow you to represent yourself, so long
as you are competent to make that decision, not whether or not you are
actually doing as good a job as a trained attorney could do.
You have expressed to me earlier on that you, in fact, did not
disagree with the manner of which I was conducting the trial. You have
conducted yourself, actually, with a fairly decent degree of crossexamination skills.
But, nonetheless, at this point right now, it's been brought to my
attention through court security that you have somehow injured yourseif
in the back — notice, I'm not asking you any questions yet — that you have
15
(&>

Case 5:i7-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 16 of 21 PagelD 1550

somehow injured yourself in the back. That would lead a prudent person
to believe that maybe the stresses of self-representation - a trial alone is
tough enough on the attorneys and the participant, because any way you
look at it, after the trial is over, the attorneys are going to go out that door.
The Defendant in a particular case has the added burden of saying, "Well,
if I lose this case, I could be facing a prolonged term of incarceration."
Now you have compounded the pressure on yourself the stress, by
wanting to Continue to self-represent. I have to be assured, through my
determinations as to whether or not you are still competent to make the
decision of self-representation.
And I can tell you Mr. Moynihan, the allegations are — that you may
have attempted to injure yourself in the back do not bode well for your
continued self-representation. Do you understand what I'm saying to you?
MR. MOYNIHAN: Yes, sir.
THE COURT: Okay. Now then, do you want me to continue to allow y ou
to represent yourself?
MR. MOYNIHAN: No, sir.

;

[Petitioner was sworn in.]
THE COURT: Put your hand down. Now, Mr. Moynihan, do you
incorporate all the questions that were - all the questions I asked of you
and the answers you gave to me just moments ago to be the truth, the whole
truth and nothing but the truth?
MR. MOYNIHAN: Yes, sir.
THE COURT: With that in mind, do you want me to assign Mr. Waatti to
be your trial counsel?
MR. MOYNIHAN: Yes, sir.
THE COURT: Very good. Are you presently under the influence of any
alcohol or intoxicant that would negatively affect your good judgment here
today?
MR. MOYNIHAN: No, sir.

16

©

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 17 of 21 PagelD 1551

THE COURT: While you have made a self-abusive motion to yourself or
you have actually injured yourself, to your neck, do you think you are
making good and informed choices now?
MR. MOYNIHAN: Yes, sir. ;
THE COURT: Okay. Has anyone threatened you, coerced you or exercised
any pressure or threat in order to get you to change your decision about
representing yourself and ask me to appoint Mr. Waatti?
MR. MOYNIHAN: No, sir.
THE COURT: Very good.
Okay. That having been said, I once again, will continue to commend
Mr. Waatti for his continued adherence to the strictest code of an attorney's
conduct, which is to be prepared - - actually, that's the old Boy Scout motto.
But nonetheless, I know that Mr, Waatti has continued to be with you
through every phase of this trial, including the voir dire examination, the
selection process, opening statements, direct examination of the witnesses,
cross-examination of the witnesses, as well as handling some legal
objections that you made that were actually sustained. So you won on those
grounds, Mr. Moynihan.
So I'm going to ask Mr. Waatti to step up to assume full
representation of Mr. Moynihan.
(Doc. 23-1 at 589-93). Ultimately, the trial court found Petitioner competent to proceed.
The state court findings and conclusions on this claim were reasonable, in accord
with, and not contrary to, the principles of Strickland, which the state court cited as the
controlling authority on ineffective assistance of counsel claims; and were not
unreasonable, given the evidence in die state court proceedings. 28 U.S.C. § 2254(d)(1)TW>
.*•- Ha?
ere* fktO.S.fcfO* H
(2).

:

F.

u! •

Ground Seven

v

^

iaC

Mq

4 rtAiStJ ’v\

‘

5- 0°^ A

Petitioner challenges the state court's denial of his Rule 3.850 claim alleging
ineffective assistance of counsel. (Doc. 1 at 13). Petitioner claims that his counsel failed to
!:

17

(5)

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 18 of 21 PagelD 1552

redact portions his confession and allowed the state to redact all instances of coercion. Id.
Petitioner claims his confession was coerced and that he was not read his Miranda rights
until after that agreement. Id.

' !

Petitioner raised this ground in his Rule 3.850 motion. (Doc. 23-1 at 1005-7). The
state court denied the claim:
In Ground Seven, Defendant alleges his trial counsel was ineffective for
mishandling evidence provided by the State and not objecting to the
introduction of evidence at trial. He claims the State "mishandled
butchered" the recording of his confession. To establish a due process
violation under Brady v. Maryland, 373 U.S. 83 (1963), a defendant must
show that the prosecution possessed evidence favorable to the defendant,
including impeachment evidence; that the defendant did not possess the
evidence nor could the defendant obtain it through reasonable diligence;
that the prosecution suppressed the evidence following a request by the
defense; that the evidence suppressed was favorable to the defendant or
exculpatory; that the evidence suppress was material to the issues at trial;
and that had the evidence been disclosed, a reasonable probability exists
that the outcome of the proceedings would have been different. See Freeman
v. State, 761 So. 2d 1055 (Fla. 2000); Melendez v. State, 718 So. 2d 746 (Fla.
1998), Moore v. Illinois, 408. U.S. 786 (1972). Here, the State provided all
necessary evidence to the Defendant. Deputy John Bergen testified that the
audio recording of the Defendant's confession was modified to remove
irrelevant portions. See attached hereto Trial Transcript November 6, 2012,
Volume III, pp. 395-400. The Defendant raised no objections to the modified
recording entered into evidence. Id. There is no support to Defendant's
contention that the recording was "butchered". Defendant has failed to
demonstrate that the State violated the rules of discovery under Brady.
Accordingly, this claim is without merit.
(Doc. 23-1 at 904). Petitioner did not appeal this ground to the Fifth DCA.
ii

Petitioner (failed to exhaust this claim in state court and is now procedurally
defaulted from raising it here. Federal habeas courts may not review the merits of
procedurally defaulted claims unless the petitioner shows either (1) cause for failing to
properly present the claim and actual prejudice from the default, or (2) that a
18

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 19 of 21 PagelD 1553

fundamental miscarriage of justice would result if the claim were not considered. Bailey
v. Nagle, 172 F.3d 1299, 1302, 1306 (11th Cir. 1999). Petitioner failed to show cause and
prejudice for the default, and nothing in the record suggests a fundamental miscarriage
of justice would result if the Court does not consider the claim.
G.

Ground .Nine

7''* *•>' '•>' •

!:k lj

7

Petitioner challenges the state court's denial of his Rule 3.850 claim alleging
ineffective assistance of counsel. (Doc. 1 at 14). Petitioner claims that his counsel allowed
him to sign a plea agreement while under duress from his incident of self-harm. Id.
Petitioner raised this ground in his Rule 3.850 motion. (Doc. 23-1 at 1010-12). The
state court denied the claim:
Finally, in Ground Nine of Defendant's motion, he claims his trial counsel
was ineffective for pressuring him to signing a plea agreement and entering
a plea. He alleges trial counsel advised him after his suicide attempt to enter
a plea. However, Defendant ultimately chose not to enter a plea and
proceeded to trial. See attached hereto Trial Transcript November 7, 2012,
Volume IV, pp. 503-7. Defendant failed to demonstrate that this "so affected
the fairness and reliability of the proceeding that confidence in the outcome
is undermined." Strickland, 466 U S. at 687. Therefore, Defendant's claim is
conclusively refuted by the record.
(Doc. 23-1 at 904-05). Petitioner did not appeal this ground to the Fifth DCA.
Petitioner (failed to exhaust this claim in state court and is now procedurally
defaulted from raising it here. Federal habeas Courts may not review the merits of
procedurally defaulted claims unless the petitioner shows either (1) cause for failing to
properly present the claim and actual prejudice from the default, or (2) that a
fundamental miscarriage of justice would result if the claim were not considered. Bailey
! I

;

v. Nagle, 172 F.3d 1299, 1302,1306 (11th Cir. 1999). Petitioner failed to show cause and
19

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 20 of 21 Page!D 1554

prejudice for die default, and nothing in the record suggests a fundamental miscarriage
of justice would result if the Court does not consider the claim.
TV.

Certificate of Appealability

This Court should grant an application for certificate of appealability only if
Petitioner makes a "substantial showing of the denial of a constitutional right." 28 U.S.C.
§ 2253(c)(2). To make such a showing "the petitioner must demonstrate that reasonable
jurists would find district court's assessment of the constitutional claims debatable or
wrongSlack v. McDaniel, 529 U.S. 473,484 (2000); see also Lamarca v. Sec'y Dep't ofCorr.,
568 F.3d 929, 934 (11th Cir. 2009). But a prisoner need not show that the appeal will
succeed. Miller-El v. Cockrell, 537 U.S. 322,337 (2003).
i
’

1 i

Petitioner has not shown that reasonable jurists would find the district court's
assessment of the constitutional claims and procedural ruling debatable or wrong. And
Petitioner has failed to make a substantial showing of the denial of a constitutional right.

\A" Ld-f

Thus, the Court will deny Petitioner,a certificate of appealability., '■
, jyjtiljbA
} / f t!

V.

I- ^A.vt

Conclusion
.

G oa4 £

tkw-y

>

Accordingly, it is ORDERED and ADJUDGED:

i »•-.
. O

1. The Petition for Writ of Habeas Corpus (Doc. 1) is DENIED, and this case is
DISMISSED with prejudice.
:h

j

■'

2. Petitioner is DENIED a certificate of appealability.
3. The Clerk of Court shall enter judgment in favor of Respondents and close this
case.

Cy

!

/ R.tt'*-’-

7

l-UT! 'r

3 h***. •?Sir

V

•'

■n*'

20

i. n ' . ■

v-

■J

1,0

Case 5:17-cv-00017-RBD-PRL Document 27 Filed 10/22/19 Page 21 of 21 PagelD 1555

DONE and ORDERED in Orlando, Florida on October 22, 2019.

Copies furnished to:
Counsel of Record
Unrepresented Party

f

21

(£)

